   SIGAR                                                   Special Inspector General for
                                                            Afghanistan Reconstruction




  ANTI-CORRUPTION MEASURES: PERSISTENT
  PROBLEMS EXIST IN MONITORING BULK
  CASH FLOWS AT KABUL INTERNATIONAL
  AIRPORT


      This product was completed under SIGAR’s Office of Special Projects, the Special
     Inspector General’s response team created to examine emerging issues in prompt,
      actionable reports to federal agencies and the Congress. The work was conducted
    pursuant to the Special Inspector General’s authorities and responsibilities under the
               National Defense Authorization Act for FY 2008 (P.L. 110-181).




                                                           DECEMBER 11, 2012
                                                                           SIGAR SP-13-1

SIGAR SP-13-1 Anti-Corruption / Currency Movement at KBL
December 11, 2012


The Honorable Janet Napolitano
Secretary of Homeland Security

The Honorable Hillary Rodham Clinton
Secretary of State

The Honorable James B. Cunningham
U.S. Ambassador to Afghanistan


The international community, including the U.S. government, has long held serious concerns about the flow of
cash out of the Kabul International Airport (KBL). According to the Congressional Research Service, an
estimated $4.5 billion was taken out Afghanistan in 2011. 1 While large cash movements are typical in
Afghanistan because it is a cash-based economy, these bulk cash flows raise the risk of money laundering and
bulk cash smuggling—tools often used to finance terrorist, narcotics, and other illicit operations.
Recognizing the seriousness of this problem, a civilian-military interagency working group based at the
U.S. Embassy in Afghanistan developed the “bulk cash flow action plan” in 2010 to better regulate cash flow at
KBL. 2 That same year, the Government of the Islamic Republic of Afghanistan (GIRoA) pledged to adopt and
implement regulations or laws within one year to govern the bulk transfers of cash outside the country. 3
In July 2011, SIGAR reported on U.S. government efforts to strengthen oversight over the flow of U.S. funds
through the Afghan economy, including the bulk cash flow action plan. 4 We initiated this review in August
2012, to follow up on concerns we raised in that report regarding implementation of the plan, particularly
Operation FinTRAX—an initiative to place bulk currency counters at KBL to monitor the outflow of funds from
Afghanistan. 5 We conducted a site visit to the airport to observe the use of bulk currency counters and other
measures designed to monitor outflows of currency. We also interviewed U.S. officials responsible for helping




1U.S. officials report that only about 5 percent of the population use banks and 90 percent use informal cash transfer

“hawalas” systems. See Congressional Research Service report, “Afghanistan: Politics, Elections, and Government
Performance”, November 30, 2012, p.48.
2Thisaction plan outlined 33 short-term, medium-term, and long-term measures designed to make it more difficult for illicit
funds to leave Afghanistan and to enhance the airport authorities’ ability to secure KBL from an array of illegal activities.
These 33 measures covered a range of areas, such as terminal controls for employees and passengers, cargo and baggage
controls, currency and merchandise declaration procedures, training and investigative efforts, revenue collection, and
regulatory enforcement.
3See Kabul International Conference on Afghanistan Communiqué: A Renewed Commitment by the Afghan Government to

the Afghan People, A Renewed Commitment by the International Community to Afghanistan; 20 July 2010, p.4.
4 See SIGAR Audit-11-13, “Limited Interagency Coordination and Insufficient Controls over U.S. Funds in Afghanistan

Hamper U.S. Efforts to Develop the Afghan Financial Sector and Safeguard U.S. Cash”, July 20, 2011, p.12-13. Another
SIGAR report noted that DHS was proposing a currency tracking program, including at KBL, to trace the source of exported
funds and exploit the intelligence gained from tracking bulk cash. See SIGAR Audit-10-15, “U.S. Reconstruction Efforts in
Afghanistan Would Benefit from a Finalized Comprehensive U.S. Anti-Corruption Strategy,” August 5, 2010, p.15.
5Operation FinTRAX (Financial Tracking, Recording, and Exploitation) is also designed to place currency counters in banks
engaged in processing electronic fund transfers on behalf of U.S. and international donors.




SIGAR SP-13-1 Anti-Corruption / Currency Movement at KBL                                                             Page 1
the Afghans strengthen controls over the flow of cash throughout Afghanistan and Afghan officials working at
KBL.
We conducted our work in Kabul, Afghanistan, from September 2012 to November 2012 in accordance with
SIGAR’s quality control standards. Those standards require that we plan and perform the review to obtain
sufficient, appropriate evidence to meet our stated objectives and to discuss any limitations in the work. We
believe that the information and data obtained, and the analysis performed, provide a reasonable basis for our
findings and conclusions. This work was conducted under the authority of Public Law No. 110-181, as
amended; the Inspector General Act of 1978; and the Inspector General Reform Act of 2008.


Background
Bulk currency counters are an important anti-money laundering tool because they can capture currency serial
numbers, data useful for detecting and investigating financial crimes. The machines purchased for KBL 6 were
designed to record currency serial numbers, create databases, and process up to 900 bills per minute. They
also were intended to transmit these data via an internet link to the Financial Transactions and Records
Analysis Center of Afghanistan (FinTRACA). FinTRACA—part of Afghanistan’s Central Bank (Da Afghanistan
Bank)—uses data on financial activity to identify financial crimes and assist law enforcement agencies in the
investigation and prosecution of criminal activity.
In 2011, SIGAR found that:
       •   Although the contract to install these bulk currency counters at airport customs areas was awarded in
           July 2010, they were not installed until April 2011, in part because U.S. and Afghan officials disagreed
           on where to put them.
       •   When we visited the airport in April 2011, the machines were being used to count declared cash, but
           not to record currency serial numbers and report financial data to FinTRACA.
       •   Passengers designated by GIRoA as Very Important Persons (VIPs) could bypass the main security and
           customs screenings and instead use a separate facility to enter the airport’s secured area. While
           these VIPs were required to declare the amount of currency they were carrying, their cash was not
           scanned through bulk currency counters, and Afghan officials reportedly had no plans to do so.
Despite this lack of cooperation from Afghan officials to fully implement the bulk cash flow action plan, GIRoA
has continued to make public commitments to combat corruption and institute stronger border controls. At the
July 2012 Tokyo Conference, 7 for example, GIRoA agreed to implement recommendations from the Financial
Action Task Force Asia Pacific Group, which publishes internationally recognized standard to protect against
money laundering and terrorist financing. 8 Among these recommendations is one stating that countries’
financial intelligence units 9 should have access on a timely basis to the financial, administrative and law


6The currency counter machines were among those purchased by the United States for Operation FinTRAX for a total cost
of $117,275.
7On July 8, 2012, representatives from 70 countries, international organizations, and non-profits groups met in Tokyo,

Japan to create a framework for continued international support for Afghanistan’s economic development.
8The Financial Action Task Force Asia Pacific Group is an independent intergovernmental body, established in 1989, was

mandated to set standards and promote effective implementation of legal, regulatory, and operational measures for
combating money laundering, terrorist financing and the financing of proliferation, and other related threats to the integrity
of the international financial system.
9 Typically, financial intelligence units are based within the central bank, the Ministry of Finance, or the regulatory agency of

a country and provide intelligence on suspicious transactions to law enforcement organizations for investigation and arrest.
FinTRACA is Afghanistan’s financial intelligence unit. To see the recommendations, see http://www.fatf-gafi.org




SIGAR SP-13-1 Anti-Corruption / Currency Movement at KBL                                                                 Page 2
enforcement information that it requires to undertake its functions properly—the type of information meant to
be collected and transmitted by the currency counters at KBL.


Afghan Government Still Does Not Use Bulk Currency Counters at KBL to Monitor Currency
Movement
We found that, more than 1 year since our last visit to KBL, the cash counters are still not being used for their
intended purpose, and VIPs continue to bypass key controls. In coordination with Department of Homeland
Security (DHS) officials, we visited KBL on September 20, 2012, to assess implementation of the bulk cash
flow action plan, including use of the currency counters. These machines are located in the international
terminal in a small closet-like area. (See figure 1).
Figure 1: Bulk Currency Counters at KBL




Source: SIGAR 20 September 2012.


We observed the following weaknesses:
       •   The two bulk currency counters were located in an area not easily accessible to Customs and
           FinTRACA officials in the international terminal.
       •   Although DHS officials told us that Afghan customs officials have been provided on-the-job training on
           the use of the bulk currency counters, we did not observe any use of the machines. 10 However, we
           were able to check that each machine was plugged into an electrical outlet and appeared to be in
           working order.



10InApril 2011, DHS officials told us that many of the airport workers felt uncomfortable using the machines and needed
time to gain familiarity with the machines’ basic function of counting cash.




SIGAR SP-13-1 Anti-Corruption / Currency Movement at KBL                                                          Page 3
    •   Neither bulk currency counter was connected to the internet or a computer server, which is essential
        for sending data to FinTRACA. (In our July 2011 report, we noted that the installation of an internet
        connection at the airport would be postponed until FinTRACA had moved to its new facility. According
        to a DHS official, this move occurred in 2011.)
    •   No bulk currency counter was available for the counting or data collection of currency declared by
        VIPs, who do not undergo main customs or security screenings. According to a DHS official, many of
        the individuals who traffic money leave from the VIP area.
    •   A new Very Very Important Persons (VVIP) lounge was built to provide easier boarding access for
        high-ranking officials, again allowing transit without main customs screenings or use of a bulk
        currency counter.

DHS officials told us that their efforts to address these problems have stalled, even though the use of bulk
currency counters to record and transmit data is critically important for their law enforcement activities.
According to one official, Afghan officials have neither committed to connecting the machines to the internet
nor agreed to establish a working link to FinTRACA. Notably, GIRoA has been able to resolve internet
connectivity issues for other technical infrastructure items at KBL, calling into question its commitment to
connecting the machines and improving controls over the movement of bulk currency. During our visit, Afghan
customs and FinTRACA officials were unable to explain why the machines remained without internet
connectivity. However, one DHS official told us that Afghan customs at KBL were afraid that they would
experience negative repercussions from GIRoA if progress in instituting controls at the airport was made. As of
October 2012, according to DHS officials, efforts to connect the bulk currency counters to the internet or a
computer server were “at a standstill.”

To improve accountability for bulk cash transfers, DHS officials have reportedly conducted several training and
ongoing mentorship programs. Since 2010, the U.S. Embassy reports that DHS has trained over 400 students
from over seven different Afghanistan law enforcement agencies in programs that contain elements aimed at
addressing the flow of currency out of the country, including Cross Border Financial Investigation training and
the Afghan Advanced Border Management course. The U.S. Embassy Kabul reports that further trainings are
planned for 2013.


Other Weaknesses Limit the Ability to Monitor the Flow of Cash at KBL
In addition to problems with the bulk currency counters, we identified other weaknesses that negatively impact
the ability to monitor currency flows. First, U.S. officials have raised concerns about a February 2012 GIRoA
decree that raised the limit on the amount of currency persons travelling outside of Afghanistan are required to
declare from $10,000 to $20,000. According to these officials, this change is likely to increase the risk of illicit
bulk cash movement and further weaken controls for monitoring money movements at KBL because it makes
it easier for individuals to engage in a practice called “structuring,” in which transactions such as money
transfers or drug purchases are conducted repeatedly in small amounts to avoid suspicion. According to
comments received from the U.S. Embassy Kabul, prior to the decree, there was no limit to the amount that
could be taken out of the country, although travelers were required to report anything over $10,000. Under
the current system, it is illegal to carry over $20,000 out of the country but there is no requirement to report
anything under $20,000. The U.S. Embassy Kabul noted that the legal limit has increased out-bound
electronic fund transfers by “hawalas” using banks to bypass the limit. However, the increased declaration
limit encourages smuggling amounts over $20,000 and no tracking of funds under $20,000, according to the
U.S. Embassy. The U.S. Embassy Kabul further stated that an effort was reportedly underway by the Afghan
government to lower the legal limit to $10,000. It remains unclear whether such a change would impact
declaration requirements.
Second, we observed that the customs office is not in a secure, undisturbed area suitable for search, seizure,
and storage of confiscated items, as recommended by the Bulk Cash Flow Action Plan. In the international


SIGAR SP-13-1 Anti-Corruption / Currency Movement at KBL                                                     Page 4
terminal, the airport janitors’ office was down the hall, and we observed custodians looking at the video
surveillance monitor in the Customs area of the terminal as they passed.
Third, although the Bulk Cash Flow Action Plan calls for video surveillance cameras to be installed and used in
the baggage screening and cargo areas of the airport, we observed that these cameras were installed and
used only in the baggage screening area inside the main international terminal. They were not installed inside
the VIP baggage screening or cargo areas.


Conclusion
The persistent delays in instituting basic anti-money laundering procedures by GIRoA at KBL are deeply
troubling. Although proper controls to monitor cash flows are important for any country to institute, they are
particularly critical for a country fraught with corruption, narcotics trafficking, and insurgent activity. In 2010,
Ambassador Eikenberry presciently noted that “many of these measures [in the bulk cash flow action plan]
require few, if any, additional resources; their success depends largely on the degree of GIRoA political will.” It
is now imperative that GIRoA live up to its commitments to combat corruption and, particularly, to strengthen
FinTRACA by ensuring that FinTRACA has all of the information required to undertake its functions properly.
That means full use of the bulk currency counters and video security system as intended, and an immediate
end to the practice of exempting designated VIPS and VVIPs from the customs procedures required of all other
passengers. We will continue to monitor this problem and expect that the Department of the State will hold
GIRoA accountable for meeting their stated commitments.


Agency Comments
We provided a draft of this report to the Department of Homeland Security, the Department of State and the
U.S. Embassy Kabul for their review and comment. The U.S. Embassy Kabul provided technical comments that
we have considered and incorporated, as appropriate, in this report. In its comments, the U.S. Embassy Kabul
discussed ongoing USG efforts to complete tasks outlined in the Bulk Cash Action Plan, noting that 26 of the
33 tasks have been completed and that the Embassy plans to coordinate the issue of the bulk currency flows
at the interagency level and will continue to raise the issues with senior levels of the Afghan government.
____________________________________________________________
This product is one in a series of products completed under SIGAR’s Office of Special Projects, the SIGAR
response team created to examine emerging issues in prompt, actionable reports to federal agencies and the
Congress. (This work was initiated under SIGAR-067A). The work was conducted in accordance with SIGAR’s
quality control standards and under the authority of Public Law No. 110-181, as amended; the Inspector
General Act of 1978; and the Inspector General Reform Act of 2008. Major contributors to this report were
Emmitt Candler, Larry Dare, Tim McQuay, and Jenniffer Wilson. Please contact my Director for Special
Projects, Ms. Monica Brym at Monica.j.brym.civ@mail.mil or 703-545-6003 if you have any questions or
concerns regarding this work.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction



SIGAR SP-13-1 Anti-Corruption / Currency Movement at KBL                                                      Page 5
                             The mission of the Special Inspector General for Afghanistan
         SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                             reconstruction of Afghanistan by conducting independent and
                             objective audits, inspections, and investigations on the use of
                             taxpayer dollars and related funds. SIGAR works to provide accurate
                             and balanced information, evaluations, analysis, and
                             recommendations to help the U.S. Congress, U.S. agencies, and
                             other decision-makers to make informed oversight, policy, and
                             funding decisions to:
                                      •   improve effectiveness of the overall reconstruction
                                          strategy and its component programs;
                                      •   improve management and accountability over funds
                                          administered by U.S. and Afghan agencies and their
                                          contractors;
                                      •   improve contracting and contract management
                                          processes;
                                      •   prevent fraud, waste, and abuse; and
                                      •   advance U.S. interests in reconstructing Afghanistan.



Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                             site (www.sigar.mil). SIGAR posts all publically released reports,
 Reports and Testimonies     testimonies, and correspondence on its Web site.




                             To help prevent fraud, waste, and abuse by reporting allegations of
 To Report Fraud, Waste,     fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
and Abuse in Afghanistan     hotline:

Reconstruction Programs               •   Web: www.sigar.mil/fraud
                                      •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                      •   Phone Afghanistan: +93 (0) 700-10-7300
                                      •   Phone DSN Afghanistan 318-3912 ext. 7303
                                      •   Phone International: +1-866-329-8893
                                      •   Phone DSN International: 312-664-0378
                                      •   U.S. fax: +1-703-601-4065




                             Public Affairs Officer
            Public Affairs            •   Phone: 703-545-5974
                                      •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                      •   Mail: SIGAR Public Affairs
                                          2530 Crystal Drive
                                          Arlington, VA 22202
